HHS/OIG-Audit--"Review of Outpatient Psychiatric Services Provided
by College Hospital for Calendar Year Ended December 31, 1998, (A-09-00-00067)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Psychiatric Services Provided by College Hospital
for the Calendar Year Ended December 31, 1998," (A-09-00-00067)
April 18, 2001
Complete Text of Report is available in PDF format
(2.54 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that a significant amount of College Hospital's
outpatient psychiatric service claims did not meet the Medicare criteria for
reimbursement. Specifically, many charges for psychiatric services were either
unreasonable or unnecessary for the treatment of the patient's condition, or
were not adequately supported by the underlying medical records. Based on a
statistical sample, we estimate that for calendar year 1998 at least $567, 888
in outpatient psychiatric charges submitted by the Hospital were unallowable.
In addition to a financial adjustment, we recommended that the Hospital strengthen
its procedures to ensure that charges for outpatient psychiatric services are
covered and properly documented in accordance with Medicare requirements.